September 28, 2007

GLORIA E. TYSON
DISTRICT MANAGER/POSTMASTER, CHICAGO DISTRICT

TODD S. HAWKINS
SENIOR PLANT MANAGER, CARDISS COLLINS PROCESSING AND
  DISTRIBUTION CENTER

SUBJECT:     Audit Report – Timeliness of Mail Processing at the Chicago, Illinois
             Cardiss Collins Processing and Distribution Center
             (Report Number NO-AR-07-012)

This report presents the results of our audit of the Cardiss Collins Processing and
Distribution Center (P&DC), located in the Chicago District, Great Lakes Area (Project
Number 07XG024NO000). Our objective was to determine whether the PD&C
processed mail in a timely manner. This audit is one of several conducted based on a
request from the Postmaster General and Chief Executive Officer and a congressional
request.

The audit confirmed that the Cardiss Collins P&DC continues to have difficulty with the
timely processing of mail, resulting in untimely mail delivery and service degradation.
Although we found some periods in fiscal year 2007 with fewer First-Class® and
Package Mail® delays, during the same periods, we found more delays in Standard
Mail® and Periodicals. In addition, compared to other large plants, the Cardiss Collins
P&DC remains one of the poorest performers in terms of service scores.

We made eight recommendations in this report. Management agreed with our
recommendations and has initiatives in progress, completed, or planned addressing the
issues in this report. We have included management’s comments and our evaluation of
these comments in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all of the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Processing, or me at (703) 248-2100.




Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jo Ann Feindt
    David E. Williams
    Jacqueline M. Krage
    Katherine S. Banks
Timeliness of Mail Processing at the Chicago, Illinois,                     NO-AR-07-012
 Cardiss Collins, Processing and Distribution Center



                                      TABLE OF CONTENTS

 Executive Summary                                                                     i

 Part I

 Introduction                                                                         1

     Background                                                                       1
     Objective, Scope, and Methodology                                                2
     Related Audit Coverage                                                           2

 Part II

 Audit Results
   Assessment of the Timeliness of Mail Processing at the Cardiss Collins             3
   Processing and Distribution Center
   Recommendations                                                                   25
   Management’s Comments                                                             25
   Evaluation of Management’s Comments                                               26
Timeliness of Mail Processing at the Chicago, Illinois,                       NO-AR-07-012
 Cardiss Collins, Processing and Distribution Center



                                      LIST OF APPENDICES

Appendix A          Great Lakes Area Districts by Three-Digit ZIP Code Area            27
Appendix B          FY 2006 Group 1 Breakthrough Productivity Index Achievement        28
Appendix C          Excess Capacity at Cardiss Collins Processing and Distribution     29
                    Center – FY 2006
Appendix D          Selected Automated Equipment Capacity at Cardiss Collins           30
                    Processing and Distribution Center – FY 2006
Appendix E          Outgoing Mail Cleared by 11 P.M. – February 2006 to                31
                    June 2007 – National Versus Cardiss Collins Processing and
                    Distribution Center
Appendix F          Percentage of Delivery Point Sequencing – National Versus          32
                    Cardiss Collins Processing and Distribution Center – FY 2003
                    to June FY 2007
Appendix G          Breakthrough Productivity Index Performance for Delivery Bar       33
                    Code Sorter – Cardiss Collins Processing and Distribution
                    Center – FY 2006
Appendix H          FY 2006 Workhour Comparison by Labor Distribution Code –           34
                    Cardiss Collins Processing and Distribution Center Versus
                    Group 1 Workhour Usage
Appendix I          FY 2006 Total Pieces Handled (TPH) Volume Comparison by            35
                    Labor Distribution Code Cardiss Collins Processing and
                    Distribution Center Versus Group 1 TPH Volume
Appendix J          FY 2006 Ranking Of Group 1 Mail Handlers Who Earned More           36
                    Than $70,000 (As a Percentage of Mail Handlers at Each Site)
Appendix K          Postal Service Initiatives                                         37
Appendix L          Management’s Comments                                              39
Timeliness of Mail Processing at the Chicago, Illinois,                            NO-AR-07-012
 Cardiss Collins, Processing and Distribution Center



                                ILLUSTRATIONS AND TABLE

Illustration 1           Delayed First-Class Letter Mail                                     5
Illustration 2           Delayed Standard Mail                                               5
Illustration 3           Catalogs that Missed The Requested In-Home Date                     7
Illustration 4           AFSM 100 in Disrepair                                               8
Illustration 5           Letter Jam in Delivery Bar Code Sorter                              9
Illustration 6           Cardiss Collins P&DC Mail Was Not Always Properly                  12
                         Color-Coded
Illustration 7           Mail Left in Delivery Bar Code Sorter Bins                         13
Illustration 8           Idle Employee                                                      14
Illustration 9           Unauthorized Break Room                                            14
Illustration 10          Unauthorized Break Room                                            15
Illustration 11          Unauthorized Break Room                                            15
Illustration 12          AFSM 100 Preparation Operation Not Properly Staffed                16
Illustration 13          Idle Dock Employees                                                17
Illustration 14          Equipment Not Properly Maintained                                  18
Illustration 15          Equipment Not Properly Maintained                                  18
Illustration 16          Insufficient Sense of Urgency                                      19
Illustration 17          Employees Idle Because APPS Was Withdrawn from                     21
                         Service
Illustration 18          Flats in Queue for Processing                                      22

Table 1                  Chicago District’s Service Performance in Comparison to            24
                         National Average Service Trends – Postal Quarter 4, FY
                         2004 to Postal Quarter 3, FY 2007
Timeliness of Mail Processing at the Chicago,                                          NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                     EXECUTIVE SUMMARY
 Introduction                    The U.S. Postal Service Office of Inspector General
                                 reviewed mail processing operations at the Cardiss Collins
                                 Processing and Distribution Center (P&DC) at the request of
                                 the Postmaster General and Chief Executive Officer and in
                                 response to a congressional request. The Cardiss Collins
                                 P&DC is located in the Chicago District in the Great Lakes
                                 Area. (See Appendix A.) Processing plants in the Chicago
                                 District include the Cardiss Collins P&DC, the Chicago
                                 O’Hare Airport Mail Center, and the Chicago Metro Surface
                                 Hub. The Chicago District serves ZIP Code areas 606
                                 through 608, covers 255 square miles, and serves more
                                 than 3 million customers.

 Results in Brief                The Cardiss Collins P&DC continues to have difficulty with
                                 the timely processing of mail, resulting in untimely mail
                                 delivery and service degradation. Although we found some
                                 periods in FY 2007 with fewer First-Class® and Package
                                 Mail® delays, during the same periods, we found more
                                 delays in Standard Mail® and Periodicals. In addition,
                                 compared to other large plants, the Cardiss Collins P&DC
                                 remains one of the poorest performers in terms of service
                                 scores.

                                 The Postal Service acknowledges these conditions and has
                                 taken a number of important actions to remedy the situation.
                                 They have conducted a top-to-bottom review of every
                                 aspect of mail processing from repairing equipment, to
                                 improving mail flows, to evaluating staffing and scheduling.
                                 These actions will increase capacity and efficiency and
                                 allow the Cardiss Collins P&DC to process more mail in less
                                 time.

                                 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal
                                 Service “. . . shall provide prompt, reliable, and efficient
                                 services to patrons in all areas . . . .” In addition, the Postal
                                 Service Strategic Transformation Plan, dated September
                                 2005, states, “The Postal Service will continue to provide
                                 timely, reliable delivery to every address at reasonable
                                 rates.”




                                                         i
Timeliness of Mail Processing at the Chicago,                                      NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                 Factors contributing to these conditions include inadequate
                                 supervision, accountability, and planning. As of Quarter 3,
                                 2007, the Chicago District service scores started to show
                                 improvement.

 Management Actions              Cardiss Collins P&DC continues to take action to streamline
                                 processing operations to improve service scores and ensure
                                 the timely processing of mail. Management assigned a new
                                 plant manager on May 17, 2007, after a series of six plant
                                 managers over the past 11 years. Management also has
                                 numerous initiatives in place or planned to make mail
                                 processing timelier.

 Summary of                      To improve the timely processing of mail, we recommended
 Recommendations                 the District Manager/Postmaster, Chicago District, and the
                                 Senior Plant Manager, Cardiss Collins P&DC: provide
                                 consistent, quality supervision and training; improve
                                 planning; make employees accountable; and continue
                                 monitoring and adjusting mail processing operations to
                                 ensure the timely processing of mail.

 Summary of                      Management agreed with our findings and
 Management’s                    recommendations. Management provided detailed actions
 Comments                        for each of the recommendations. We have included
                                 management’s comments, in their entirety, in Appendix L.

 Overall Evaluation of           Management’s comments are responsive to our
 Management’s                    recommendations. Management’s actions in progress,
 Comments                        completed, or planned should correct the issues identified in
                                 the report.




                                                        ii
Timeliness of Mail Processing at the Chicago,                                                    NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                           INTRODUCTION
    Background                      The Cardiss Collins Processing and Distribution Center
                                    (P&DC) is located in the Chicago District in the Great Lakes
                                    Area. Appendix A shows a map of the Great Lakes Area.
                                    The Chicago District serves ZIP Code areas 606 through
                                    608 with more than 3 million customers.

                                    The Cardiss Collins P&DC was opened in April 1996 and
                                    has over 1.7 million square feet. In fiscal year (FY) 2006,
                                    the Cardiss Collins P&DC processed 1.5 billion first handled
                                    pieces (FHP) using 3.2 million workhours. As of June 2007,
                                    Cardiss Collins P&DC had 2,401 paid employees. Cardiss
                                    Collins P&DC is the 30th largest mail processing plant in the
                                    postal network of 273 plants.

                                    From FY 2004 to FY 2006, Cardiss Collins P&DC had a
                                    7 percent decline in FHP volume compared to the national
                                    average FHP volume, which increased 2.7 percent. During
                                    the same period, Cardiss Collins P&DC workhours
                                    decreased by more than 17 percent compared to a national
                                    average workhour increase of 3.75 percent. Also during the
                                    same time, productivity (FHP divided by workhours) at
                                    Cardiss Collins P&DC increased by 13 percent, while the
                                    national average productivity decreased by 1 percent. In
                                    spite of this increase in productivity, the Cardiss Collins
                                    P&DC was well below national productivity averages1 and
                                    performed poorly compared to similar sites. (See Appendix
                                    B.)

                                    In December 2006, the Chicago District began receiving
                                    negative media coverage about mail delays.2 This negative
                                    media attention expanded during calendar year 2007 and
                                    elected representatives requested the U.S. Postal Service
                                    take immediate corrective action. Subsequently, the Postal
                                    Service committed considerable resources3 to correct
                                    delayed mail problems. In addition, the Postmaster General
                                    and Chief Executive Officer made a commitment to resolve
                                    delayed mail problems in the Chicago District and requested
                                    a U.S. Postal Service Office of Inspector General (OIG)
                                    review.


1
  In FY 2006, the Cardiss Collins P&DC processed 469 FHP per workhour compared to the national FHP productivity
of 672 pieces per workhour.
2
  Mail delays occur when mail is not processed or dispatched by its programmed delivery day. The Postal Service
expects some delayed mail, although no specific targets have been established for large plants.
3
  The Postal Service dedicated over 153 personnel from across the country to assist the Chicago District.



                                                         1
Timeliness of Mail Processing at the Chicago,                                               NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


     Objective, Scope, and          The objective of the audit was to determine whether the
     Methodology                    Cardiss Collins P&DC processed mail in a timely manner.
                                    To accomplish the objective we: reviewed selected
                                    processing operations; conducted interviews and
                                    observations; and analyzed mail volume, workhours,
                                    productivity, service scores, and delayed mail trends.

                                    We used computer-processed data from the National Work
                                    Hour Reporting System, Web Enterprise Information
                                    System, Web End-of-Run System, Web Mail Condition
                                    Reporting System (MCRS), Management Operating Data
                                    System (MODS), Origin-Destination Information System,
                                    Service Issue Record System, Revenue, Pieces, and
                                    Weight System, and the Enterprise Data Warehouse. We
                                    did not test controls over these systems. However, we
                                    checked the reasonableness of results by confirming our
                                    analyses and results with Postal Service managers and
                                    multiple data sources. In addition, an OIG review of MODS
                                    concluded that the data in this system was valid and reliable
                                    for the purposes for which the Postal Service uses it.4

                                    We conducted this performance audit from April through
                                    September 2007 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as we considered necessary under the
                                    circumstances. Those standards require that we plan and
                                    perform the audit to obtain sufficient, appropriate evidence
                                    to provide a reasonable basis for our findings and
                                    conclusions based on our audit objective. We believe that
                                    the evidence obtained provides a reasonable basis for our
                                    findings and conclusions based on our audit objective. We
                                    discussed our observations and conclusions with
                                    management on June 26, 2007 and included their
                                    comments where appropriate.

     Related Audit                  The OIG has several on-going audits specifically addressing
     Coverage                       timeliness of mail service and financial accountability in the
                                    Chicago District.




4
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).


                                                        2
Timeliness of Mail Processing at the Chicago,                                                        NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                                                     AUDIT RESULTS
    Assessment of the                During the period FY 2004 through June 2007, the Cardiss
    Timeliness of Mail               Collins P&DC had difficulty with the timely processing of
    Processing at the                mail, resulting in mail delays and service declines.
    Cardiss Collins                  Specifically, we found:
    Processing and
    Distribution Center                  •    The total amount of delayed mail increased from
                                              3 million pieces in FY 2004 to 139 million pieces in
                                              FY 2006.5 As of Quarter 3, FY 2007, delayed mail
                                              totaled 379 million pieces for the year.

                                         •    Compared to similar-sized plants, the Cardiss Collins
                                              P&DC remains one of the lowest performers in
                                              processing mail in a timely manner.

                                         •    The Cardiss Collins P&DC generally had a sufficient
                                              number of employees and automated equipment
                                              capacity to process its mail in a timely manner.

                                         •    Opportunities existed to improve efficiencies and
                                              process mail more timely.

                                         •    The Cardiss Collins P&DC generally had effective
                                              internal controls over identifying and reporting
                                              delayed mail, although opportunities existed to
                                              improve color-coding.

                                     The Postal Service acknowledges these conditions and has
                                     taken a number of important actions to remedy the situation.
                                     These actions have resulted in some improvements. From
                                     Quarter 1 FY 2007 to Quarter 3 FY 2007, First-Class®
                                     delayed mail decreased approximately 71 percent, and
                                     Package Mail® delayed mail decreased almost 100 percent.
                                     In addition, Quarter 3, FY 2007 service scores have
                                     improved in comparison to Quarter 4, FY 2006.

                                     39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal
                                     Service “. . . shall provide prompt, reliable, and efficient
                                     services to patrons in all areas . . .” In addition, the Postal
                                     Service Strategic Transformation Plan, dated September
                                     2005, states, “The Postal Service will continue to provide
                                     timely, reliable delivery to every address at reasonable
                                     rates.”
5
 Part of this increase can be attributed to processes implemented in August 2006 to better capture delayed mail
volumes.


                                                           3
Timeliness of Mail Processing at the Chicago,                                         NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                     The excessive amount of delayed mail was due to
                                     inadequate and improper supervision, scarce accountability,
                                     and insufficient planning.

     Delayed Mail Trends             While some delayed mail has decreased, the Cardiss Collins
                                     P&DC continues to experience significant amounts of
                                     delayed mail in all mail classes. For instance, total delayed
                                     mail at the Cardiss Collins P&DC increased from 3 million
                                     pieces in FY 2004 to 139 million pieces in FY 2006. As of
                                     Quarter 3, FY 2007, delayed mail totaled 379 million pieces
                                     for the year.

                                     Cardiss Collins P&DC began reducing its delayed First-
                                     Class and Package Mail. For example, from Quarter 1 to
                                     Quarter 3, FY 2007, delayed First-Class Mail decreased by
                                     almost 9 million pieces, or 71 percent. During the same
                                     period, delays in Package Service Mail decreased by more
                                     than 1.6 million pieces, or almost 100 percent.

                                     However, Periodical and Standard Mail delays increased.
                                     For example, from Quarter 1 to Quarter 3, FY 2007,
                                     Periodical Mail delays increased by 70,000 pieces (9
                                     percent), and Standard Mail delays increased by almost
                                     43 million pieces (56 percent). We concluded that Cardiss
                                     Collins P&DC needed to make greater efforts to process this
                                     mail in a timely manner.

                                     The illustrations below show some delayed First-Class Mail
                                     (Illustration 1) and a substantial amount of delayed Standard
                                     Mail6 (Illustration 2) that were on hand during our
                                     observations.




6
    On May 3, 2007, we observed some delayed Standard Mail dated April 16, 2007.


                                                          4
Timeliness of Mail Processing at the Chicago,                                NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                           Illustration 1. Delayed First-Class Letter Mail




   Three containers containing First-Class Mail were delayed on May 9, 2007. Cardiss
   Collins P&DC reduced the amount of delayed First-Class Mail by nearly 71 percent
   from Quarters 1 to 3, FY 2007.

                                 Illustration 2. Delayed Standard Mail




   Several containers of delayed Standard Mail observed on May 24, 2007. Standard
   Mail delays increased by 45 percent from Quarters 1 to 3, FY 2007.




                                                        5
Timeliness of Mail Processing at the Chicago,                                                         NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



    Comparison to                    Compared to other large plants, the Cardiss Collins P&DC
    Similar-Sized Facilities         remains one of the lowest performers in processing mail in a
                                     timely manner. Specifically, in FY 2006 and year-to-date
                                     (YTD) FY 2007,7 Cardiss Collins P&DC was:

                                         •    The lowest performer in processing First-Class Mail,
                                              ranking 36th out of 36 group 18 sites in both periods.
                                              In FY 2006, Cardiss Collins P&DC First-Class Mail
                                              delays were 3 percent compared to the national
                                              average of .5 percent, and in YTD FY 2007, delays
                                              were 4 percent compared to the national average of
                                              .4 percent.

                                         •    The lowest performer in processing Package
                                              Services Mail, ranking 36th out of 36 group 1 sites in
                                              both periods. Cardiss Collins P&DC Package Mail
                                              delays represented nearly 18 percent of total
                                              Package Mail volume in FY 2006 and increased to
                                              approximately 23 percent in YTD FY 2007, compared
                                              to the national average of approximately .3 percent
                                              for both periods.

                                         •    Ranked 17th out of 36 sites in processing Periodical
                                              Mail in FY 2006 but declined to 25th out of 36 sites
                                              YTD FY 2007. Cardiss Collins P&DC Periodical Mail
                                              delays in FY 2006 and YTD FY 2007 represented
                                              approximately 3 and 6 percent of total Periodical Mail
                                              volume, respectively, compared to the national
                                              average of approximately 12 and 6 percent of total
                                              Periodical Mail volume in these periods.

                                         •    Ranked 33rd in Standard Mail delays out of 36
                                              other group 1 sites in FY 2006, but then declined,
                                              becoming the lowest performer by Quarter 3, FY
                                              2007. Cardiss Collins P&DC Standard Mail delays
                                              represented approximately 16 and 57 percent in
                                              FY 2006 and YTD FY 2007, respectively, compared
                                              to the national average of 7 and 6.5 percent of total
                                              Standard Mail in these periods. Illustration 3 shows
                                              that we found many sales catalogs that were still at
                                              the facility after the requested in-home date.

7
 YTD FY 2007 is through June 30, 2007.
8
 The Cardiss Collins P&DC is a group 1 processing facility. A group 1 facility processes the largest amount of
volume as compared to other processing and distribution facilities.




                                                            6
Timeliness of Mail Processing at the Chicago,                                                             NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                 Illustration 3. Catalogs that Missed the Requested In-Home Date




      Sales catalogs with a requested in-home date from April 30 to May 2, 2007, that were
      still at the Cardiss Collins P&DC on May 11, 2007.

      Automated Equipment               The Cardiss Collins P&DC generally had sufficient
      Capacity                          automated equipment capacity to process its mail in a timely
                                        manner, although opportunities existed to further increase
                                        capacity.

                                             •   If the Cardiss Collins P&DC operated at the average
                                                 group 1 productivity level, it could have processed an
                                                 additional 803 million mailpieces in FY 2006. (See
                                                 Appendix C.)

                                             •   The Cardiss Collins P&DC had sufficient individual
                                                 automated equipment capacity and used the majority
                                                 of its available capacity. Appendix D shows that the
                                                 Delivery Bar Code Sorter (DBCS) and Advanced Flat
                                                 Sorter Machine (AFSM) operated at approximately 91
                                                 and 90 percent of available capacity, based on
                                                 average group 1 productivity levels during FY 2006.

                                        The AFSM 100 retrofit9 in March 2007 required withdrawing
                                        machines from service, temporarily reducing the Cardiss
                                        Collins P&DC’s ability to process flat mail in a timely

9
    The AFSM 100 retrofit refers to the installation of the automatic induction modification to the AFSM 100.


                                                               7
Timeliness of Mail Processing at the Chicago,                                           NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                         manner.10 To illustrate, in FY 2006, AFSM 100 throughput11
                                         at Cardiss Collins P&DC averaged 13,845 pieces per hour.
                                         During the retrofit (March to April 2007) AFSM 100
                                         throughput averaged only 11,955 pieces per hour.
                                         Maintenance on the AFSM 100 also needed improvement.
                                         Illustration 4 shows an AFSM 100 that was in disrepair and
                                         had to be taken out of service.

                                       Illustration 4. AFSM 100 in Disrepair




         AFSM 100 awaiting maintenance repair on June 5, 2007. Of the three consoles on
         an AFSM 100, the first had a broken belt; the second read less than 50 percent of
         the mailpieces; and the third jammed excessively. These problems reduced the
         Cardiss Collins P&DC capacity to process flats.

                                         The use of older DBCSs contributed to diminished capacity.
                                         Twenty-four of 45 DBCSs were nearly 16 years old and
                                         were prone to high reject rates, jams, and excessive
                                         breakdowns. For example, from FY 2003 to June 2007, the
                                         Cardiss Collins P&DC averaged 4.25 DBCS jams per
                                         10,000 mailpieces, compared to the national average of
                                         2.65 jams per 10,000 mailpieces (approximately 60 percent
                                         more jams). Illustration 5 shows a DBCS that was shut
                                         down to clear a letter jam.




10
     Flat mail may include Priority, First-Class, Periodical, and Standard Mail.
11
     Throughput is the number of pieces processed by a machine per hour.


                                                                 8
Timeliness of Mail Processing at the Chicago,                                               NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                      Illustration 5. Letter Jam in Delivery Bar Code Sorter




                                                                   Jam indicator light is
                                                                   on, indicating a jam.




   DBCSs jammed at a high rate. On May 11, 2007, we observed several jams within a
   5-minute period that reduced capacity.

                                   During our audit, management began to improve capacity by
                                   ensuring that the preventive maintenance schedule was
                                   followed, and by overhauling DBCS machines.
                                   Consequently, throughput on the DBCSs improved. For
                                   example, in FY 2006, the average throughput for a DBCS
                                   totaled 34,405 mailpieces per workhour, compared to an
                                   average throughput of 35,892 mailpieces per workhour from
                                   February to June 2007.

   Human Resource                  Cardiss Collins P&DC had more than enough employees to
   Capacity                        process its workload. Specifically, in FY 2006, Cardiss
                                   Collins P&DC ranked 30th largest in FHP volume, 7th
                                   highest in workhours, and 11th highest in average number
                                   of employees among group 1 sites. This comparison
                                   showed that Cardiss Collins P&DC used more workhours
                                   than necessary to process its workload, compared to other
                                   group 1 sites. In FHP productivity, Cardiss Collins P&DC
                                   ranked 35th of the 36 group 1 sites in FY 2006. In order to




                                                        9
Timeliness of Mail Processing at the Chicago,                                          NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                   achieve the average FY 2006 FHP12 of 720, Cardiss Collins
                                   P&DC would need to reduce workhours by 1.1 million, or the
                                   equivalent of 632 employees.13

     Efficiency                    The Cardiss Collins P&DC had opportunities to improve
                                   efficiencies and process mail in a timely manner.
                                   Specifically, we found that the Cardiss Collins P&DC had
                                   difficulty meeting:

                                        •   Outgoing mail clearance times.

                                        •   Transportation dispatch times.

                                        •   The national average for sorting letter mail into
                                            delivery sequence order.

                                        •   The national productivity average for DBCSs.14

                                   Outgoing Clearance Times. From February to December
                                   2006, Cardiss Collins P&DC met outgoing clearance times
                                   approximately 85 percent of the time, which was significantly
                                   below the national average of 92.5 percent. (See Appendix
                                   E.) While we noted improvements from April to June 2007,
                                   additional opportunities exist to meet this 24-hour clock
                                   target. This would further reduce mail delays and help
                                   improve service scores.

                                   Transportation Clearance Times. The Cardiss Collins P&DC
                                   had difficulty ensuring that transportation dispatches met
                                   scheduled departure times. The transportation delays
                                   observed were the result of the Cardiss Collins P&DC not
                                   having all its mail processed in time to meet transportation
                                   dispatches. For example, we found instances where DBCSs
                                   were running past their clearance times. Consequently, mail
                                   was dispatched to carrier stations late, possibly causing
                                   delivery delays and poor service scores. (Note:
                                   Transportation issues are addressed further in a separate
                                   report.)

                                   Delivery Point Sequencing. The Cardiss Collins P&DC
                                   consistently ranked below the national average for letters


12
   In FY 2006, the Cardiss Collins P&DC processed 469 FHP per workhour.
13
   Based on the FY 2005 clerk craft work year of 1,767 hours.
14
   This system includes the DBCS and the Combined Input/Output SubSystem.


                                                        10
Timeliness of Mail Processing at the Chicago,                                                           NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                      sorted in delivery point sequence. (See Appendix F.)15
                                      During FY 2006 and from October 2006 to June 2007,
                                      Cardiss Collins P&DC averaged approximately 69 and 72
                                      percent, respectively, for letter mail processed in delivery
                                      point sequence. The national average for delivery point
                                      sequencing was 79.7 and 82.2 percent, respectively.
                                      Consequently, Chicago District mail carriers manually case
                                      a higher percentage of letter mail than their national
                                      counterparts, resulting in increased office time and possible
                                      mail delays. (Note: Delivery issues are addressed further in
                                      a separate report.)

                                      DBCS Productivity The Cardiss Collins P&DC improved
                                      productivity on the DBCSs, but remained below the national
                                      productivity average.

                                          •    In FY 2006, Cardiss Collins P&DC processed 7,257
                                               pieces per hour on the DBCS, compared to the
                                               group 1 average national productivity of 7,934 pieces
                                               per hour. (See Appendix G.)

                                          •    As of June 2007, the Cardiss Collins P&DC improved
                                               productivity by processing 7,471 pieces per hour,
                                               compared to the national average of 7,823 pieces.

                                      Low productivity diminished Cardiss Collins P&DC’s ability
                                      to sort mail in delivery point sequence and process all letter
                                      mail during the operational window.

     Controls over                    The Cardiss Collins P&DC generally had effective internal
     Identification and               controls over identifying and reporting delayed mail,
     Reporting of Delayed             although opportunities existed to improve color-coding.16
     Mail
                                      The amount of delayed and on-hand mail was accurately
                                      reported in the MCRS. We observed the counting of mail at
                                      the Cardiss Collins P&DC on May 9 and June 5, 2007. The
                                      mail counts fairly reflected conditions on the workroom floor.
                                      In addition, our interviews of two employees responsible for
                                      counting the mail each morning showed they understood the
                                      definition of delayed mail. Furthermore, Cardiss Collins


15
   Delivery Point Sequencing consists of mail that is sorted in delivery order, reducing or eliminating the need for
carriers to sort it by hand at the post office.
16
   The Postal Service uses color-coding to facilitate the timely processing, dispatch, and delivery of Standard Mail to
meet established service standards. Color-coding allows mail to be put in sequence to ensure first-in, first-out
processing. Mail is properly color-coded when it bears a color-code tag showing the date and time the mail arrived at
the facility.


                                                            11
Timeliness of Mail Processing at the Chicago,                                      NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                   P&DC had a system for the Manager, Distribution
                                   Operations, to review mail inventories and confirm counts
                                   before entering the data in the MCRS. We confirmed that
                                   the data entered matched the amounts in the MCRS.

                                   Cardiss Collins P&DC needs to improve controls over color-
                                   coding. During our observations, 141 out of 491 containers
                                   examined (29 percent) were not properly color-coded.
                                   Specifically, 120 containers had no color-code tag, and 21
                                   containers had no date and time stamped on the color-code
                                   tag. Improved color coding will allow the Cardiss
                                   Collins P&DC to prioritize its workload and ensure first-in,
                                   first-out mail processing. Illustration 6 shows mail not
                                   bearing the proper color-code tags during our observations.

   Illustration 6. Cardiss Collins P&DC Mail Was Not Always Properly Color-Coded




   From May 2 through 6, 2007, we found that 141 out of 491 containers examined were
   not properly color-coded.

   Causes of Delayed               Several factors contributed to the Cardiss Collins P&DC’s
   Mail                            ability to process mail in a timely manner. These factors
                                   were inadequate and improper supervision, scarce
                                   accountability, and insufficient planning.

                                   Inadequate Supervision. The Cardiss Collins P&DC had
                                   significant management turnover, which resulted in
                                   inadequate supervision. Since its opening in 1996, Cardiss
                                   Collins P&DC has had seven different plant managers, as
                                   well as numerous different managers and supervisors,
                                   overseeing mail processing operations. As of June 2007,
                                   Cardiss Collins P&DC had 22 management vacancies,


                                                        12
Timeliness of Mail Processing at the Chicago,                                               NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                        indicating that management oversight had not stabilized.
                                        Cardiss Collins P&DC supervisors used large amounts of
                                        sick leave.17 In FY 2006, Cardiss Collins P&DC supervisors’
                                        sick leave ratio was 8.28 percent of workhours, more than
                                        twice the national average of 3.63 percent.

                                        Improper Supervision. During our observations, we often
                                        found employees who were not being supervised. In some
                                        cases, we found it difficult to locate a supervisor.
                                        Consequently, supervisors at Cardiss Collins P&DC did not
                                        ensure:

                                            •    Employees properly removed all mail from machine
                                                 bins after processing, which resulted in mail delays.
                                                 (See Illustration 7.)

                       Illustration 7. Mail Left in Delivery Bar Code Sorter Bins




                    Mail still
                    in reject
                    bins




       First-Class and Standard Mail was often left in the machine reject bins after
       completion of sorting and dispatching of mail. Not removing all mail from machine
       bins after processing indicated poor supervision.

                                            •    Employees were actively engaged in processing mail.
                                                 Unofficial break rooms were created, making it easier
                                                 for employees to take unauthorized breaks. (See
                                                 Illustrations 8 through 11.)




17
     Sick leave hours divided by total supervisory workhours.


                                                                13
Timeliness of Mail Processing at the Chicago,                                    NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                      Illustration 8. Idle Employee




     Employee found idle on June 5, 2007, at 2:30 a.m.

                              Illustration 9. Unauthorized Break Room




                                                                Cardboard attached to
                                                                railings.


    Makeshift break area constructed by employees on the 2nd floor behind the Finance
    Station. Cardboard lines the railing, obstructing the supervisor’s view of the
    unauthorized area. (June 5, 2007, 7:33 a.m.)




                                                        14
Timeliness of Mail Processing at the Chicago,                                        NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                             Illustration 10. Unauthorized Break Room




    Hidden break area with chair on the dock. (June 5, 2007, 7:30 a.m.)

                             Illustration 11. Unauthorized Break Room




    Makeshift employee break area with chairs and a plant surrounded by general
    purpose containers. (June 5, 2007, 6:38 p.m.)

                                       •   Proper staffing of operations. Illustration 12 shows
                                           that AFSM 100 preparing, feeding and clearing
                                           positions were often not properly staffed to maintain
                                           machine throughput.




                                                        15
Timeliness of Mail Processing at the Chicago,                                                        NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



           Illustration 12. AFSM 100 Preparation Operation Not Properly Staffed




        Prepping stations not staffed on AFSM 100 on June 5, 2007, at 4:47 a.m.
        Observations revealed that AFSM 100 prepping, feeding, and sweeping positions
        were often not properly staffed to maintain machine throughput.

                                         •    Employee schedules matched the requisite workload.
                                              In comparing the percentages of workhours used and
                                              volume processed (if applicable) at Cardiss Collins
                                              P&DC to similar sites, we found that employee
                                              scheduling could be improved. For example, in
                                              FY 2006, Cardiss Collins P&DC Labor Distribution
                                              Code (LDC) 1118 Total Pieces Handled (TPH) volume
                                              represented 85 percent of total volume, which was
                                              comparable to the group 1 LDC 11 TPH volume of
                                              87 percent. Yet Cardiss Collins P&DC used 13
                                              percent of its workhours in LDC 11 compared to the
                                              national average of 17 percent, indicating LDC 11
                                              operations were understaffed. Conversely, LDCs 17
                                              and 1819 workhours were excessive compared to
                                              other sites. For example, Cardiss Collins P&DC used
                                              42 and 15 percent of total workhours in these two
                                              operations, compared to the group 1 averages of 38
                                              and 9 percent. (See Appendices I and J.) Our
                                              observations confirmed this analysis.



18
  LDC 11 is used to record hours and volumes associated with automated letter distribution.
19
  LDC 17 is used to record hours spent in mail processing other direct operations. LDC 18 is used to record hours
spent in mail processing, indirect/related operations.


                                                           16
Timeliness of Mail Processing at the Chicago,                                      NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                                            For example, Illustration 13 shows dock employees
                                            who were idle, indicating that too many employees
                                            may have been scheduled for this operation.

                                   Illustration 13. Idle Dock Employees




       Employees assigned to dock operations were idle, indicating that too many
       employees may be assigned to this operation. (May 24, 2007, 7:24 a.m.)

                                       •   Adequate maintenance of automated equipment,
                                           which contributed to excess machine downtime. For
                                           example, one DBCS had not received preventive
                                           maintenance since its overhaul 3 weeks earlier.
                                           Illustrations 14 and 15 document the need to improve
                                           preventive maintenance.




                                                        17
Timeliness of Mail Processing at the Chicago,                                      NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                       Illustration 14. Equipment Not Properly Maintained




            Grooves
            in DBCS
            Gate




    Badly grooved DBCS gate removed from the machine during overhaul, indicating the
    need for regular preventive maintenance. This gate should have been replaced
    before the overhaul. Parts this badly worn can cause jams and can reduce machine
    throughput. (June 5, 2007, 8:08 a.m.)

                       Illustration 15. Equipment Not Properly Maintained




   Spliced wire harness needing replacement was a safety hazard and should have
   been replaced. (This wire harness was replaced during our audit.)

                                       •   Overtime workhours were adequately adjusted to
                                           changes in workload. For example, from FY 2004 to
                                           FY 2006, overtime workhours at Cardiss Collins
                                           P&DC increased by more than 39 percent, in spite of
                                           a 7 percent decrease in FHP volume. Because of
                                           high overtime usage, 169 mail handlers earned more



                                                        18
Timeliness of Mail Processing at the Chicago,                                         NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                              than $70,00020 in FY 2006. Thus, Cardiss Collins
                                              P&DC ranked first for the highest number of mail
                                              handlers earning more than $70,000 among all other
                                              group 1 sites. (See Appendix J.)

     Scarce Accountability           The Cardiss Collins P&DC managers did not always hold
                                     supervisors and craft employees accountable for achieving
                                     goals. Specifically, we found:

                                         •    Supervisors and craft employees were unaware of
                                              productivity goals. While the Cardiss Collins P&DC
                                              had displayed daily service score achievements,
                                              productivity data for individual operations was not
                                              displayed or discussed with employees. This made it
                                              difficult to reward good performance or correct poor
                                              performance.

                                         •    Many employees did not show a sense of urgency to
                                              process mail. At various operations, we found
                                              employees not performing their duties even though
                                              there were significant amounts of backlogged mail.
                                              Illustration 16 shows an example of employees with
                                              an insufficient sense of urgency.

                             Illustration 16. Insufficient Sense of Urgency




     We found that many employees generally did not have a sense of urgency to
     complete their assignments. This picture shows employees engaged in conversation
     and not processing the mail. (May 11, 2007, 11:29 a.m.)


20
     FY 2006 base salaries for these employees ranged from $43,512 to $49,095.


                                                          19
Timeliness of Mail Processing at the Chicago,                                        NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



   Insufficient Planning           The Cardiss Collins P&DC management insufficiently
                                   planned for mail processing changes, contributing to
                                   problems with the timely processing of mail. Specifically,
                                   these changes included:

                                       •   Transferring letter mail from the Irving Park P&DC.

                                       •   Withdrawing the Automated Package Processing
                                           System (APPS) from service.

                                       •   Retrofitting the AFSM 100s.

                                       •   Adjustments in personnel.

                                   Transfer of Letter Mail from Irving Park P&DC. In July 2006,
                                   the Postal Service began transferring letter mail processing
                                   from the Irving Park P&DC to the Cardiss Collins P&DC.
                                   However, this transfer was not well planned, creating
                                   significant delays and a bottleneck in letter operations. For
                                   example, in the 10 months preceding this transfer of letter
                                   mail, delayed letter mail at Cardiss Collins P&DC averaged
                                   4.8 million pieces per month. After the transfer, delayed
                                   letter mail averaged 20.3 million pieces, an increase of 316
                                   percent.

                                   APPS Withdrawn from Service. On June 4, 2007, we
                                   observed that the APPS had been removed from the
                                   Cardiss Collins P&DC. The supervisor overseeing the
                                   APPS operation told us he was unaware it was being
                                   withdrawn from service. The supervisor also said that
                                   because the APPS had been removed, the sort plan for the
                                   Small Parcel Bundle Sorter (SPBS) had to be changed in
                                   order to maintain mail processing of small bundles and
                                   packages. As a result, as shown in Illustration 17, as many
                                   as 15 employees were idle for over 2 hours until the SPBS
                                   sort plan was completed. Cardiss Collins P&DC missed an
                                   opportunity to reduce its total amount of delayed mail by not
                                   redirecting these resources.




                                                        20
Timeliness of Mail Processing at the Chicago,                                              NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



         Illustration 17. Employees Idle Because APPS Was Withdrawn from Service




      As many as 15 employees were idle for over 2 hours on June 4, 2007, because the
      APPS was withdrawn from service without proper planning.

                                         Retrofit of the AFSM 100s. In February 2007, the Cardiss
                                         Collins P&DC began retrofitting the flat21 sorting machines.
                                         This retrofit required withdrawing four AFSM 100s from
                                         service, one machine at a time. During the retrofit,
                                         significant mail delays occurred. Illustration 18 shows a
                                         portion of the 1.5 million delayed flats caused in part by the
                                         AFSM 100 retrofit. Better planning, such as redirecting this
                                         mail processing to other facilities, could have prevented this
                                         temporary processing situation.




21
     Flat mail may include Priority, First-Class, Periodicals, and Standard Mail.


                                                                21
Timeliness of Mail Processing at the Chicago,                                                       NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center



                            Illustration 18. Flats in Queue for Processing




     Some of the over 1.5 million flats that were delayed, due in part to the retrofit of the
     AFSM 100s. (May 8, 2007, 3:54 a.m.)

                                    Personnel Changes. Cardiss Collins P&DC did not have a
                                    succession plan in place to fill vacancies promptly. For
                                    example, 53 percent of mail processing and 40 percent of
                                    maintenance supervisors were eligible to retire in FY 2006.
                                    By FY 2010, the data shows these percentages jump to 80
                                    and 70 percent of supervisors in these categories. We
                                    found similar trends for mail processing and maintenance
                                    personnel.22 Cardiss Collins P&DC must ensure that
                                    employees are available to process mail and maintain the
                                    machines, and needs to plan for the possible retirement of a
                                    major portion of its managers and staff.

     Delayed Mail Impact            Mail processing delays adversely affected service scores.
                                    To illustrate, the Chicago District’s service scores as of
                                    Quarter 3, FY 2007, were significantly below Quarter 4, FY
                                    2004, levels for each of the four service categories.

                                    However, recent management efforts improved mail
                                    processing timelines and increased service scores in all four
                                    categories as of Quarter 3, FY 2007, compared to the prior
                                    three quarters. Further, the Chicago District’s service

22
  Forty-two percent of mail processing and 34 percent of maintenance employees were eligible to retire in FY 2006.
By FY 2010, 60 percent of these employees will be eligible to retire.


                                                          22
Timeliness of Mail Processing at the Chicago,                                                       NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                    scores were also significantly below the national average
                                    service scores. The Chicago District continues to have a
                                    low performance ranking in comparison to other districts.
                                    Table 1 shows the Chicago District scores and rankings
                                    from Quarter 4, FY 2004, to Quarter 3, FY 2007.

                                    Mail delays23 resulted in poor customer service, and
                                    customer complaints increased. For example, the average
                                    number of complaints totaled 183 from Quarter 1 to Quarter
                                    3 in FY 2006. During the same period in FY 2007, the
                                    average number of complaints rose to 293, an increase of
                                    nearly 60 percent. Similarly, the average number of
                                    complaints regarding mail delays in excess of 9 days totaled
                                    990 from Quarter 1 through Quarter 3, FY 2006. During the
                                    same period in FY 2007, the average number of complaints
                                    rose to 1,731, an increase of nearly 75 percent.




23
   Includes mail delays that may have been caused by delivery, mail processing operations, or both. Delays are
classified from 2 days to more than 12 days.


                                                          23
Timeliness of Mail Processing at the Chicago,                                     NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


      Table 1. Chicago District’s Service Performance in Comparison to National
                               Average Service Trends,
                Postal Quarter 4, FY 2004, to Postal Quarter 3, FY 2007

                                                  Chicago
                                                  Ranking       Chicago       National
      Service         Postal         Fiscal      Compared       Service       Average
     Category         Quarter         Year       to National     Score     Service Scores
                     Quarter 3        2007         79 of 79      92.65          95.91
                     Quarter 2        2007         79 of 79      89.84          95.16
                     Quarter 1        2007         79 of 79      88.88          95.06
    Overnight
                     Quarter 4        2006         79 of 79      91.12          95.42
                     Quarter 4        2005         74 of 79      93.89          95.21
                     Quarter 4        2004         58 of 79      94.87           95.4
                     Quarter 3       2007          78 of 80      87.80          92.28
                     Quarter 2       2007          80 of 80      76.35          89.44
    2- and 3-        Quarter 1       2007          78 of 80      77.17          88.36
    Day              Quarter 4       2006          78 of 80      83.62          90.85
                     Quarter 4       2005          72 of 80      88.25          90.53
                     Quarter 4       2004          46 of 80      91.14          91.23
                     Quarter 3        2007         77 of 78      89.94          93.25
                     Quarter 2        2007         78 of 78      80.99          91.17
                     Quarter 1        2007         78 of 78      81.41          90.79
    2-Day
                     Quarter 4        2006         78 of 78      85.86          91.71
                     Quarter 4        2005         64 of 78      90.14          91.49
                     Quarter 4        2004         30 of 78      92.86          91.98
                     Quarter 3       2007          78 of 80      84.48          91.39
                     Quarter 2       2007          80 of 80      69.10          87.57
                     Quarter 1       2007          79 of 80      70.58          86.17
    3-Day
                     Quarter 4       2006          77 of 80      80.44          90.24
                     Quarter 4       2005          76 of 80      85.46          89.80
                     Quarter 4       2004          67 of 80      88.81          90.62


   Postal Service Actions          Cardiss Collins P&DC continues to streamline processing
                                   operations to improve service scores and ensure the timely
                                   processing of mail. Management assigned a new plant
                                   manager on May 17, 2007, after a series of six plant
                                   managers during the past 11 years. Management also has
                                   numerous initiatives in place or planned to improve the
                                   timely processing of mail. (Appendix K explains these
                                   initiatives.)




                                                        24
Timeliness of Mail Processing at the Chicago,                                                     NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


     Recommendations                To improve the timely processing of mail, we recommend
                                    the District Manager/Postmaster, Chicago District, and the
                                    Senior Plant Manager, Cardiss Collins Processing and
                                    Distribution Center:

                                        1. Monitor delayed mail on a daily basis and develop
                                           action plans, if necessary, to ensure the timely
                                           processing of mail.

                                        2. Improve supervision by ensuring that supervisors are
                                           properly trained and held accountable for results in
                                           their operation.

                                        3. Ensure that employees are held accountable by
                                           establishing performance goals, monitoring
                                           achievement of those goals, and rating performance
                                           based on goals.

                                        4. Ensure that timely and proper preventive
                                           maintenance is conducted on mail processing
                                           equipment.

                                        5. Ensure proper staffing and use of overtime in relation
                                           to workload.

                                        6. Ensure that proper plans are developed and followed
                                           for events that will affect mail processing operations,
                                           such as flat sorter refurbishment, removal of
                                           equipment, sort plan changes, retrofits, new
                                           equipment installations, and employee attrition.

                                        7. Develop contingency plans in the event that mail
                                           cannot be processed timely at the Cardiss Collins
                                           Processing and Distribution Center, including the
                                           redirection of the mail processing to other facilities.

                                        8. Provide consistent supervision.

     Management’s                   Management agreed with our findings and
     Comments                       recommendations.24 Management conducted supervisory
                                    training to ensure proper monitoring of operations, trained
                                    maintenance personnel, hired a new maintenance manager,
                                    and established processes ensuring proper maintenance of
                                    mail processing equipment. Management also created a
24
  In a subsequent correspondence regarding the response in Appendix L, management explicitly agreed with all
recommendations.


                                                         25
Timeliness of Mail Processing at the Chicago,                                       NO-AR-07-012
 Illinois, Cardiss Collins Processing and Distribution Center


                                   standard operating procedure to address overtime approval
                                   and new operational industrial engineer positions
                                   responsible for operational changes.

                                   Management also agreed to develop preventive processes
                                   to ensure the timely processing of mail; set goals for
                                   employees; and monitor goal achievement. Management
                                   will review scheduling and staffing to ensure proper staffing
                                   of operations and develop a facility offload contingency plan
                                   to ensure the timely processing of mail. Finally,
                                   management will stabilize supervision by increasing the
                                   number and level of positions and reducing the number of
                                   acting supervisors.

   Evaluation of                   Management’s comments are responsive to our
   Management’s                    recommendations. Management’s actions in progress,
   Comments                        completed, or planned should correct the issues identified in
                                   the findings.




                                                        26
Timeliness of Mail Processing at the Chicago, Illinois                               NO-AR-07-012
 Cardiss Collins Processing and Distribution Center


                                                APPENDIX A

 GREAT LAKES AREA DISTRICTS BY THREE-DIGIT ZIP CODE AREA


     Great Lakes Area
     Customer Service Districts
                            Lakeland
                     498-499,530-532,534,535,
                       537-539,541-545,549
                                                                  Greater Michigan
                                                                  486-491, 493-497



                                                                      Southeast Michigan
                                                                         480,483-485
                              Chicago
                              606-608


                        Northern Illinois
                        600-603, 610,611
                                                                     Detroit
               Central Illinois                                   481,482, 492
        604,605,609,613-619,625-627




            Gateway                                              Greater Indiana
      620,622-624,628-631,                                    460-469,472-475,478,479
        633-635,650-653




                                                         27
NO-AR-07-012




                                                                      FY 2006 GROUP 1 BREAKTHROUGH PRODUCTIVITY INDEX ACHIEVEMENT




                                                                                                                                                                                                                             a
                                                                                                                                                                                                                          hi
                                                                                                                                                                                                                        lp
                                                                                                                                                                                                                     de
                                                                                                                                                                                                                 i la
                                                                                                                                                      Cardiss Collins,




                                                                                                                                                                                                            Ph gan d ns
                                                                                                                                                                                                               or an l li
                                                                                                                                                                                                            M vel Co
                                                                                                                                                          53.39%




                                                                                                                                                                                                              le s
                                                                                                                                                                                                            C dis
                                                                                                                                                                                                              ar
                                                                                                                                                                                                            C roit
                                                                                                                                                                                                              et
                                                                                                                                                                                                            D las ti
                                                                                                                                                                                                              al a
                                                                                                                                                                                                            D cin n
                                                                                                                                                                                                              in r
                                                                                                                                                                                                            C ve h
                                                                                                                                                                                                              en rg
                                                                                                                                                                                                            D bu
                                                                                                                                                                                                               tts e co
                                                                                                                                                                                                            Pi ti n c is
                                                                                                                                                                                                                 l a an
                                                                                                                                                                                                            Pa Fr
                                                                                                                                                                                                                 n is
                                                                                                                                                                                                            Sa ou ee
                                                         APPENDIX B




                                                                                                                                                                                                                 L k
                                                                                                                                                                                                            St au e
                                                                                                                                                                                                               i lw or
                                                                                                                                                                                                            M tim
                                                                                                                                                                                                                 l th
                                                                                                                                                                                                            Ba or d
                                                                                                                                                                                                                 W an
                                                                                                                                                                                                            Ft -I sl




                                                                                                                                                                                                                                                                     28
                                                                                                                                                                                                               id            s
                                                                                                                                                                                                            M pa le
                                                                                                                                                                                                                m ge
                                                                                                                                                                                                            Ta An etro
                                                                                                                                                                                                                 s           s
                                                                                                                                                                                                            Lo th M xa
                                                                                                                                                                                                              or e
                                                                                                                                                                                                            N th T el s
                                                                                                                                                                                                              or i
                                                                                                                                                                                                            N Dan
                                                                                                                                                                                                              V nd s
                                                                                                                                                                                                            D kl a ol i
                                                                                                                                                                                                               a p
                                                                                                                                                                                                            O ano nto
                                                                                                                                                                                                               di e
                                                                                                                                                                                                            In ram s
                                                                                                                                                                                                                 c bu y
Timeliness of Mail Processing at the Chicago, Illinois




                                                                                                                                                                                                            Sa um Cit
 Cardiss Collins Processing and Distribution Center




                                                                                                                                                                                                              ol s m
                                                                                                                                                                                                            C sa re a
                                                                                                                                                                                                                 n t
                                                                                                                                                                                                            Ka ol S




                                                                                                                                                                                                                                 Source: Enterprise Data Warehouse
                                                                                                                                                                                                              ar d
                                                                                                                                                                                                            C tl an na
                                                                                                                                                                                                                 r A
                                                                                                                                                                                                            Po ta
                                                                                                                                                                                                                 n n ta
                                                                                                                                                                                                            Sa s to lari
                                                                                                                                                                                                              ou C
                                                                                                                                                                                                            H ta ol is
                                                                                                                                                                                                                 n p
                                                                                                                                                                                                            Sa nea
                                                                                                                                                                                                              in s
                                                                                                                                                                                                            M een rs
                                                                                                                                                                                                              u ll e
                                                                                                                                                                                                            Q Se
                                                                                                                                                                                                              L ix
                                                                                                                                                                                                            M n
                                                                                                                                                                                                                oe
                                                                                                                                                                                                            Ph ttle
                                                                                                                                                                                                                 a
                                                                                                                                                                                                            Se

                                                                                                                                    90%

                                                                                                                                          80%

                                                                                                                                                70%

                                                                                                                                                          60%

                                                                                                                                                                         50%

                                                                                                                                                                               40%

                                                                                                                                                                                     30%

                                                                                                                                                                                           20%

                                                                                                                                                                                                 10%

                                                                                                                                                                                                       0%
Timeliness of Mail Processing at the Chicago, Illinois                                          NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                          APPENDIX C

                                               EXCESS CAPACITY AT CARDISS COLLINS
                                                         P&DC – FY 2006
                    2,500,000,000



                                                          Cardiss Collins
                                                               P&DC
                    2,000,000,000
                                                          Excess Capacity
                                                              FY 2006
                                                            803,261,856
                                                                35%
                    1,500,000,000




                    1,000,000,000                         Cardiss Collins
                                                             P&DC FHP
                                                              Volume
                                                              FY 2006
                                                           1,503,937,984
                     500,000,000
                                                                65%




                               0


Note: Excess capacity is based on the Cardiss Collins P&DC achieving the Group 1 average FY 2006 FHP productivity of
720 pieces per workhour as compared to Cardiss Collins P&DC FY 2006 productivity of 469 pieces per workhour.




                                                               29
Timeliness of Mail Processing at the Chicago, Illinois                                                  NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                          APPENDIX D

                       SELECTED AUTOMATED EQUIPMENT CAPACITY AT CARDISS COLLINS
                                          P&DC FY 2006

                                        Average TPH
                                        Productivity    TPH                      Potential   Additional     Percentage of
                      TPH*                Group 1    Productivity Workhours      Volume      Capacity         Capacity
DBCS            2,442,786,832                7,953       7,257    336,624      2,677,112,382 234,325,550         91.25

APPS              16,069,728                  428        425          37,794    16,166,344     96,616            99.40

SPBS              12,262,348                  271        215          56,905    15,437,271    3,174,923          79.43
AFSM
                 223,341,334                 2,107       1,903    117,372      247,333,026   23,991,692          90.30
100

Note: *TPH is Total Pieces Handled
Percentage of capacity for each type of automated equipment was based on the average group 1 productivity computed
for each type of equipment.




                                                                 30
Timeliness of Mail Processing at the Chicago, Illinois                                                                                                       NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                                              APPENDIX E
                    OUTGOING MAIL CLEARED BY 11 P.M. FEBRUARY 2006 TO JUNE 2007
                             NATIONAL VERSUS CARDISS COLLINS P&DC
                120%




                100%




                 80%




                 60%




                 40%




                 20%




                  0%
                                M


                                          AP




                                                                           AU




                                                                                           O


                                                                                                       N




                                                                                                                             FE


                                                                                                                                    M


                                                                                                                                               AP
                         FE




                                                  M


                                                             JU


                                                                   JU




                                                                                  SE




                                                                                                               D


                                                                                                                      JA




                                                                                                                                                       M


                                                                                                                                                                  JU
                                                                                                        O


                                                                                                                EC
                                                                                              C
                                 AR




                                                                                                                                     AR
                                                   AY




                                                                                                                                                        AY
                                                                                                                        N
                                                               N


                                                                     L




                                                                                                                                                                    N
                                                                                                                               B
                           B




                                             R




                                                                                                                                                  R
                                                                                     P
                                                                             G




                                                                                               T


                                                                                                        V
                                                                      20




                                                                                                                          20
                                                               20




                                                                                                                                                                    20
                            20




                                                                                     20
                                             20




                                                                                                                                                  20
                                                                                                20




                                                                                                                   20
                                                                              20




                                                                                                            20
                                                      20




                                                                                                                                                           20
                                   20




                                                                                                                                 20


                                                                                                                                        20
                                                                         06




                                                                                                                            07
                              06




                                                                 06




                                                                                                                                                                      07
                                                                                         06
                                                 06




                                                                                                                                                      07
                                                                                                   0




                                                                                                                     06
                                                                                06




                                                                                                              06
                                                         0




                                                                                                                                                              0
                                      0




                                                                                                                                   07


                                                                                                                                           0
                                                                                                   6
                                                        6




                                                                                                                                                             7
                                      6




                                                                                                                                          7
                                                                              National    Cardiss-Collins




                                                                                           31
NO-AR-07-012




                                                                                                                                                                                07
                                                                                                                                                                              20
                                                                                                                                                                            FY 7
                                                                                                                                                                         n 00
                                                                                                                                                                       Ju Y2 7
                                                                                                                                                                          r F 00
                                                                                                                                                                       Ap Y2 7
                                                                                                                                                                            F
                                                                                                                                                                         b 200
                                                                                                                                                                       Fe FY 7
                                                                      PERCENTAGE OF DELIVERY POINT SEQUENCING –




                                                                                                                                                                                0
                                                                                                                                                                        ec 0
                                                                                                                                                                       D Y2 6
                                                                                                                                                                            F 0
                                                                                                                                                                        ct 20
                                                                                                                                                                       O FY 6
                                                                                                                                                                         g 00
                                                                                                                                                                       Au Y2 6
                                                                                                                                                                            F
                                                                          NATIONAL VERSUS CARDISS COLLINS




                                                                                                                                                                         n 00
                                                                                                                                                                       Ju Y2 6
                                                                                                                                                                          r F 00
                                                                                                                                                                       Ap Y2 6
                                                                                                                                                                            F
                                                                                                                                                                         b 200
                                                                                                                                                                       Fe FY 6
                                                                                                                                                                                0
                                                                                                                                                                        ec 0
                                                                                                                                                                       D Y2 5
                                                                               FY 2003 TO JUNE FY 2007




                                                                                                                                                                            F 0
                                                                                                                                                                        ct 20
                                                                                                                                                                       O FY 5




                                                                                                                                                                                     CHICAGO DPS %
                                                                                                                                                                         g 00
                                                                                                                                                                       Au Y2 5
                                                                                                                                                                            F
                                                                                                                                                                         n 00
                                                                                                                                                                       Ju Y2 5
                                                                                                                                                                          r F 00
                                                         APPENDIX F




                                                                                                                                                                       Ap Y2 5
                                                                                                                                                                            F
                                                                                                                                                                         b 200
                                                                                                                                                                       Fe FY 5
                                                                                        P&DC




                                                                                                                                                                                0
                                                                                                                                                                        ec 0




                                                                                                                                                                                                      32
                                                                                                                                                                       D Y2 4
                                                                                                                                                                            F 0
                                                                                                                                                                        ct 20
                                                                                                                                                                       O FY 4




                                                                                                                                                                                     NATIONAL DPS %
                                                                                                                                                                         g 00
                                                                                                                                                                       Au FY2 4
                                                                                                                                                                         n 00
                                                                                                                                                                       Ju Y2 4
                                                                                                                                                                          r F 00
                                                                                                                                                                       Ap Y2 4
                                                                                                                                                                            F
                                                                                                                                                                         b 200
                                                                                                                                                                       Fe FY 4
                                                                                                                                                                                0
                                                                                                                                                                        ec 0
                                                                                                                                                                       D Y2 3
                                                                                                                                                                            F 00
                                                                                                                                                                        ct
                                                                                                                                                                       O FY2 3
                                                                                                                                                                         g 00
                                                                                                                                                                       Au FY2 3
                                                                                                                                                                         n 00
Timeliness of Mail Processing at the Chicago, Illinois
 Cardiss Collins Processing and Distribution Center




                                                                                                                                                                       Ju Y2 3
                                                                                                                                                                          r F 00
                                                                                                                                                                       Ap Y2 3
                                                                                                                                                                            F
                                                                                                                                                                         b 200
                                                                                                                                                                       Fe FY 3
                                                                                                                                                                                0
                                                                                                                                                                        ec 0
                                                                                                                                                                       D Y2 2
                                                                                                                                                                            F 0
                                                                                                                                                                        ct 20
                                                                                                                                                                       O FY 2
                                                                                                                                                                         g 00
                                                                                                                                                                       Au FY2 2
                                                                                                                                                                         n 00
                                                                                                                                                                       Ju Y2
                                                                                                                                                                          rF
                                                                                                                                                                       Ap
                                                                                                                  90


                                                                                                                       80


                                                                                                                            70



                                                                                                                                 60


                                                                                                                                       50



                                                                                                                                             40


                                                                                                                                                    30



                                                                                                                                                         20


                                                                                                                                                              10


                                                                                                                                                                   0
                                                                                                                                      PERCENT DPS
                                                                      BREAKTHROUGH PRODUCTIVITY INDEX PERFORMANCE FOR DBCS – CARDISS COLLINS
NO-AR-07-012




                                                                                                                                                                                                                                          D
                                                                                                                                                                                                                                       AN
                                                                                                                                                                                                                                     TL E A
                                                                                                                                                                                                                                  R OR RIT
                                                                                                                                                                                                                              PO TIM LA
                                                                                                                                                                                                                                  L C E
                                                                                                                                                                                                                              BA TA KE IA
                                                                                                                                                                                                                                  N U H
                                                                                                                                                                                                                              SA WA LP
                                                                                                                                                                                                                                IL E
                                                                                                                                                                                                                              M AD
                                                                                                                                                                                                                                  IL IS
                                                                                                                                                                                                                              PH O U
                                                                                                                                                                                                                                   L IX
                                                                                                                                                                                                                              ST EN
                                                                                                                                                                 NATIONAL AVERAGE 7.924




                                                                                                                                                                                                                                  O R
                                                                                                                                                                  CARDISS COLLINS PDC,




                                                                                                                                                                                                                              PH VE ND
                                                                                                                                                                                                                                EN LA
                                                                                                                                                                                                                              D -IS O
                                                                                                                                                                      RANKS 27TH




                                                                                                                                                                                                                                ID G
                                                                                                                                                                                                                              M CA ND S
                                                                                                                                                                                                                                  I A
                                                                                                                                                                                                                                H L A
                                                                                                                                                                          7,257




                                                                                                                                                                                                                              C VE EX
                                                                                                                                                                                                                                        T
                                                                                                                                                                                                                                LE
                                                                                                                                                                                                                              C TH            O
                                                                                                                                                                                                                                  R
                                                                                                                                                                                                                                O S TR
                                                                                                                                                                                                                              N EN E
                                                                                                                                                                                                                                  E M
                                                                                                                                                                                                                                U
                                                                                                                                                                                                                              Q TH TH
                                                                                                                                                                                                                                  R
                                                                                                                                                                                                                                O R
                                                                                                                                                                                                                              N O
                                                                                                                                                                                                                                  W AN I
                                                                                                  P&DC – FY 2006




                                                                                                                                                                                                                              FT RG AT
                                                                                                                                                                                                                                O N H
                                                         APPENDIX G




                                                                                                                                                                                                                              M CIN RG
                                                                                                                                                                                                                                IN U
                                                                                                                                                                                                                              C SB US S
                                                                                                                                                                                                                                 TT B LI
                                                                                                                                                                                                                              PI UM PO




                                                                                                                                                                                                                                                   33
                                                                                                                                                                                                                                  L
                                                                                                                                                                                                                                O A
                                                                                                                                                                                                                              C AN I
                                                                                                                                                                                                                                 D IT
                                                                                                                                                                                                                              IN RO N CO
                                                                                                                                                                                                                                             S
                                                                                                                                                                                                                                ET O I
                                                                                                                                                                                                                              D S T NC O
                                                                                                                                                                                                                                  U A T
                                                                                                                                                                                                                                O
                                                                                                                                                                                                                              H FR EN
                                                                                                                                                                                                                                  N M
                                                                                                                                                                                                                              SA RA
                                                                                                                                                                                                                                  C INE
                                                                                                                                                                                                                              SA AT            M
                                                                                                                                                                                                                                  L    S    EA
                                                                                                                                                                                                                              PA LA TR
                                                                                                                                                                                                                                        S TY
                                                                                                                                                                                                                                AL
                                                                                                                                                                                                                              D OL CI
                                                                                                                                                                                                                                AR S
Timeliness of Mail Processing at the Chicago, Illinois




                                                                                                                                                                                                                              C SA
 Cardiss Collins Processing and Distribution Center




                                                                                                                                                                                                                                  N LE LIS
                                                                                                                                                                                                                              KA TT PO
                                                                                                                                                                                                                                  A A
                                                                                                                                                                                                                              SE NE ELS
                                                                                                                                                                                                                                IN NI
                                                                                                                                                                                                                              M DA D
                                                                                                                                                                                                                                V N
                                                                                                                                                                                                                              D LA
                                                                                                                                                                                                                                AK          S
                                                                                                                                                                                                                              O PA ER
                                                                                                                                                                                                                                  M L L
                                                                                                                                                                                                                              TA SE NA S
                                                                                                                                                                                                                                L       A E
                                                                                                                                                                                                                              M TA EL
                                                                                                                                                                                                                                  N G
                                                                                                                                                                                                                              SA AN
                                                                                                                                                                                                                                  S
                                                                                                                                               12,000                                                                         LO




                                                                                                                                                        10,000




                                                                                                                                                                                          8,000




                                                                                                                                                                                                  6,000




                                                                                                                                                                                                          4,000




                                                                                                                                                                                                                  2,000




                                                                                                                                                                                                                          0
Timeliness of Mail Processing at the Chicago, Illinois                                                               NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                                  APPENDIX H

     FY 2006 WORKHOUR COMPARISON BY LDC CARDISS COLLINS P&DC VERSUS GROUP 1
                               WORK HOUR USAGE


                       CARDISS COLLINS P&DC                                                     GROUP 1 SITES
                                                                                                   LDC 18              LDC 10
                                                                                                     9%                  7%

                                               LDC 10                                                                                    LDC 11
                   LDC 18                        6%                                                                                       17%
                    15%                                           LDC 11
                                                                   13%


                                                                              LDC 12
                                                                                6%




                                                                                                                                                    LDC 12
                                                                                       LDC 17                                                         7%
                                                                              LDC 13    38%
                                                                                5%
                                                                                                                                           LDC 13
                                                                                                                                             7%
         LDC 17                                                      LDC 14
          42%                                                         13%                                   LDC 15              LDC 14
                                                         LDC 15                                                                  14%
                                                          0.18%                                               1%




                                                                                34
 Timeliness of Mail Processing at the Chicago, Illinois                                                     NO-AR-07-012
  Cardiss Collins Processing and Distribution Center




                                                                  APPENDIX I

  FY 2006 TPH VOLUME COMPARISON BY LDC CARDISS COLLINS P&DC VERSUS GROUP 1 TPH
                                     VOLUME

                GROUP 1 SITES                                                          CARDISS COLLINS P&DC


                            LDC 14, 4%
          LDC 13, 0.21%
                                     LDC 15, 0.19%                                     LDC 13, 0.01%   LDC 14, 7%
LDC 12, 8%
                                                                               LDC 12, 8%




                                                                                                                           LDC 11, 85%
                                                    LDC 11, 87%




                                                                       35
                                                                      FY 2006 RANKING OF GROUP 1 MAIL HANDLERS WHO EARNED MORE THAN $70,000
NO-AR-07-012




                                                                                                                                                                                                E
                                                                                                                                                                                              TL R S
                                                                                                                                                                                          A T LE
                                                                                                                                                                                      SE L S
                                                                               (AS A PERCENTAGE OF MAIL HANDLERS AT EACH SITE)




                                                                                                                                                                                            SE IEL
                                                                                                                                                                                        L
                                                                                                                                                                                      M AN
                                                                                                                                                                                            D
                                                                                                                                                                                        V UIS
                                                                                                                                                                                      D
                                                                                                                                                                                           LO N
                                                                                                                                                                                      ST GA
                                                                                                                                                                                           R N
                                                                                                                                                                                        O O
                                                                                                                                                                                      M ST
                                                                                                                                                                                          U
                                                                                                                                                                                        O S
                                                                                                                                                                                      H N
                                                                                                                                                                                          EE D
                                                                                                                                                                                        U
                                                                                                                                                                                      Q LAN E
                                                                                                                                                                                                 R
                                                                                                                                                                                        AK O
                                                                                                                                                                                      O IM
                                                                                                                                                                                          L T IT S
                                                                                                                                                                                      BA RO LI
                                                                                                                                                                                                  O
                                                                                                                                                                                        ET P
                                                                                                                                                                                      D EA H
                                                                                                                                                                                            N RG
                                                                                                                                                                                        IN U S
                                                                                                                                                                                      M SB LE
                                                                                                                                                                                                  E
                                                                                                                                                                                         TT G
                                                                                                                                                                                      PI AN
                                                                                                                                                                                          S NE IA
                                                                                                                                                                                      LO T I PH
                                                                                                                                                                                          L A EL
                                                                                                                                                                                      PA A D
                                                         APPENDIX J




                                                                                                                                                                                          I L IX
                                                                                                                                                                                      PH EN
                                                                                                                                                                                          O
                                                                                                                                                                                      PH AS D
                                                                                                                                                                                             L N
                                                                                                                                                                                        AL A H




                                                                                                                                                                                                            36
                                                                                                                                                                                      D IS L R T
                                                                                                                                                                                            -
                                                                                                                                                                                        ID O O
                                                                                                                                                                                      M T W ETR
                                                                                                                                                                                          R M AM
                                                                                                                                                                                      FO TH RE
                                                                                                                                                                                          R ST ITA
                                                                                                                                                                                        O
                                                                                                                                                                                      N OL AR
                                                                                                                                                                                                 L
                                                                                                                                                                                        AR C
                                                                                                                                                                                      C TA
                                                                                                                                                                                          N
                                                                                                                                                                                      SA PA TI
                                                                                                                                                                                          M NA
                                                                                                                                                                                      T A IN A
                                                                                                                                                                                            C N
                                                                                                                                                                                        IN A
                                                                                                                                                                                      C TA D O
                                                                                                                                                                                          N AN SC
                                                                                                                                                                                      SA EL CI
                                                                                                                                                                                             V N
                                                                                                                                                                                        LE A
                                                                                                                                                                                      C FR E
                                                                                                                                                                                          N KE
Timeliness of Mail Processing at the Chicago, Illinois
 Cardiss Collins Processing and Distribution Center




                                                                                                                                                                                      SA AU ITY
                                                                                                                                                                                            W C
                                                                                                                                                                                        IL
                                                                                                                                                                                      M SAS S
                                                                                                                                                                                          N BU
                                                                                                                                                                                      KA M
                                                                                                                                                                                          LU         S
                                                                                                                                                                                        O R
                                                                                                                                                                                      C VE XA
                                                                                                                                                                                                  E
                                                                                                                                                                                        EN T IS
                                                                                                                                                                                      D TH OL
                                                                                                                                                                                          R
                                                                                                                                                                                        O AP O
                                                                                                                                                                                      N A N NT
                                                                                                                                                                                            I
                                                                                                                                                                                         D ME           S
                                                                                                                                                                                      IN RA D          N
                                                                                                                                                                                          C N LLI
                                                                                                                                                                                      S A T LA C O
                                                                                                                                                                                          R S
                                                                                                                                                                                      P O D IS
                                                                                                                                                                                        AR
                                                                                                                                                                                      C
                                                                                                                                              30%




                                                                                                                                                    25%




                                                                                                                                                          20%




                                                                                                                                                                15%




                                                                                                                                                                      10%




                                                                                                                                                                            5%




                                                                                                                                                                                 0%
Timeliness of Mail Processing at the Chicago, Illinois                        NO-AR-07-012
 Cardiss Collins Processing and Distribution Center


                                             APPENDIX K

                               POSTAL SERVICE INITIATIVES

    ¾ Accounting for and updating staffing and scheduling for clerks and mail handlers;
      posting and filling executive and administrative salary (EAS) positions; and
      opening test registers for maintenance positions.

    ¾ Tracking penalty and overtime usage.

    ¾ Utilizing managers of distribution operations from other Postal Service Areas to
      improve service and mentor current managers, supervisors, and craft employees.

    ¾ Establishing a requirement for all EAS to communicate expectations and
      accountability.

    ¾ Improving maintenance employees’ knowledge of machine performance and
      holding them accountable for performance.

    ¾ Establishing and conducting training on automation systems performance
      proficiencies for managers, supervisors, and craft employees.

    ¾ Implementing new procedures and providing training on mail condition reporting.

    ¾ Providing training on proper placarding and color-coding.

    ¾ Providing training and establishing a signage system on trays sent through
      mechanized systems to reduce the reject rate.

    ¾ Creating a plan to resolve incorrect containerization and incorrect flow into the
      plant.

    ¾ Developing a plan to have earlier delivery point sequence completion time and
      ending Tour 1 at 5:30 a.m.

    ¾ Overhauling DBCS equipment.

    ¾ Updating and streamlining sort plans to decrease rehandling.




                                                         37
Timeliness of Mail Processing at the Chicago, Illinois                          NO-AR-07-012
 Cardiss Collins Processing and Distribution Center



                                             APPENDIX K

                   POSTAL SERVICE INITIATIVES (CONTINUED)
    ¾ Establishing a system to monitor performance level at each DBCS after overhaul
      and hold employees accountable for performance.

    ¾ Establishing a system to track and record late mail arrivals from other facilities.

    ¾ Developing a system to monitor missent mail from stations to ensure that stations
      are not sending mail back to the plant.

    ¾ Analyzing flat mail for improvements.

    ¾ Implementing a plan to improve communication between EAS and craft
      employees on service goals.

    ¾ Examining current design, capacity, and floor space for improvements.




                                                         38
Timeliness of Mail Processing at the Chicago, Illinois        NO-AR-07-012
 Cardiss Collins Processing and Distribution Center


                      APPENDIX L. MANAGEMENT’S COMMENTS




                                                         39
Timeliness of Mail Processing at the Chicago, Illinois        NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                         40
Timeliness of Mail Processing at the Chicago, Illinois        NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                         41
Timeliness of Mail Processing at the Chicago, Illinois        NO-AR-07-012
 Cardiss Collins Processing and Distribution Center




                                                         42
